           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
P.L.          107-289       Accountability of Tax Dollars Act of 2002
P.L.          107-347       Federal Information Security Management Act of 2002
General Accounting Office Government Auditing Standards

             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                                April 2005 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                 1
Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     1
Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . . . .                                                 2
Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . . . .                                                   2
Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . . .                                                   2
Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . . . .                                                          3

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . .                                                               5

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            6

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                 8

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9
Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         9
Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       9
  Evaluation of the U.S. International Trade Commission’s Fiscal Year 2004
    Information Security Program and Practices,
      OIG-AR-01-05 (October 6, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              9
  Independent Audit of the U.S. International Trade Commission’s
    FY 2004 Financial Performance and Statement on the Commission’s
      Management Challenges, OIG-AR-02-05 (November 9, 2004) . . . . . . . . . . . . . . .                                                         10
  Management Letter: Audit of the U.S. International Trade Commission’s
    Financial Statements for the Year Ended September 30, 2004,
      OIG-AR-03-05 (March 24, 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            11
Audit Follow–up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        12
  Evaluation of the U.S. International Trade Commission’s Discretionary
    Document Mail Distribution Program, OIG-AR-01-04
      (May 26, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             12
  Evaluation of the Commission’s Travel Program, OIG-AR-03-02
    (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 12
  Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001) . . . .                                                                   13

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        14




                                                                          i
                                                                 ig
                                              April 2005 SemiAnnual Report




                           TABLE OF CONTENTS-Continued
                                                                                                                                      Page


INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            17
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17
 Government Accountability Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           17
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

TABLE 1: AUDIT REPORTS WITH QUESTIONED COSTS                                                               . . . . . . . . . . . . . . . . . 20

TABLE 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22




                                                                      ii
                                          ig
                              April 2005 SemiAnnual Report




                      COMMISSION’S TOP
                   MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the OIG—as
well as recent OIG activities relating to each challenge—are discussed below. Through
audits and inspections, the OIG has been helping the Commission to address these
challenges.
We discuss the Commission’s management challenges within the framework of the
President’s Management Agenda (PMA) that included five somewhat interrelated
Government-wide initiatives: (1) Competitive Sourcing, (2) Improved Financial
Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital.
Because the Commission was not among the 24 PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to
score its PMA progress. However, the Commission’s FY 2005 and FY 2006 Budget
Justifications, as well as its strategic planning documents, expressed the Commission’s
commitment to the spirit of the five PMA initiatives. OIG work addressing the
Commission’s adherence to that spirit is discussed below.

Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees should perform the
activity. The intended outcome is better service at a lower price.
The Commission has competitively contracted for information technology services, certain
editing and publishing services, mailroom and general labor services, cleaning and
building maintenance services, and security services. Private sector contract employees
comprise more than 10 percent of on-site personnel. In addition, other services are acquired
on an as-needed basis, such as virtually all equipment maintenance services, application
systems design and development, and certain audit and financial services. For example,
the OIG contracts for audit services. Also, the Commission has made competitive awards
for consulting services regarding information security, preparation of financial statements,
information technology (IT), and human capital planning.
The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In August 2004, the Commission issued its seventh comprehensive list of commercial

                                             1
                                          ig
                              April 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
activities consistent with the Federal Activities Inventory Reform Act of 1998 (FAIR Act).
The Commission has said that it will continue to evaluate competitive alternatives and
efficient service contracting options to maximize efficiency and minimize cost. During this
period, OIG audits and inspections did not address competitive sourcing.
Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. The key
components of the Commission’s total budget were personnel (72 percent) and rent (10
percent). In compliance with 31 USC w 3515 as amended by the Accountability of Tax
Dollars Act of 2002, the Commission produced financial statements, notes and a
management discussion and analysis for FY 2004. During this period, the OIG’s audit
found no material weaknesses and resulted in an unqualified opinion on the statements.
Management Challenge: Budget and Performance Integration. OMB plans event-
ually to expand its examination of federal budget decisions to 100 percent of federal
programs. Performance information will be used to (1) end or reform programs that either
cannot demonstrate positive results or are clearly failing and (2) put resources in programs
that can prove they are successful.
In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology. Budget
integration efforts to date have allowed Commission managers more effectively to track
changes in workload and compare them to changes in cost. In doing so, the Commission is
able to determine whether resources are being allocated efficiently. The performance goals
and indicators in the Commission’s Annual Performance Plan also provide measures by
which the agency’s activities can be assessed. The Commission’s Performance Results
Report for FY 2004 was presented in the Performance and Accountability Report submitted
to Congress as required by the Accountability of Tax Dollars Act of 2002. During this period,
OIG audits and inspections did not address budget and performance integration.
Management Challenge: Expanded Electronic Government. The Expanded Elect-
ronic Government Initiative is designed to bring more services to the American citizen over
the Internet, make government more efficient, and improve information technology (IT)
management throughout the Executive Branch. Agencies continue to manage their IT
within a framework the Administration set up to avoid problems before investments are
made and taxpayer dollars lost. Agencies must demonstrate that their projects will provide

                                             2
                                           ig
                               April 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments.

Every Commission business process—investigations, research, trade information services,
trade policy support, and administration—depends on reliable and effective information
systems and services. The information that the Commission processes and generates is a
valuable asset that management must protect from loss, misuse, unauthorized access or
modification. In 2004, the Commission implemented e-Quip, the OPM e-Government
initiative for more efficient investigations for employee security clearances. The
Commission redesigned its website and made progress on e-Government initiatives such
as EDIS and the Interactive Tariff and Trade DataWeb.

The continued challenge the Commission faces is how to apply adequate resources to
ensure sufficient information security. Much of this information is in electronic form,
resides in a variety of hardware platforms and software applications, and is accessible
through various communications links.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000 and
the Federal Information Security Management Act of 2002 (FISMA), to help federal
organizations protect government information resources. Each agency must centralize
information security management under its Chief Information Officer (CIO), as the
Commission did in FY 2003. The need for centralized information security management
results, in part, from the highly interconnected nature of modern information systems.

Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted the fourth annual
comprehensive audit of the Commission’s information security program during this period.
The Commission made significant progress in strengthening its information security
program plan during the 2004 fiscal year. However, we made 14 recommendations for
improvement with which the Commission concurred (discussed on page 9).

Management Challenge: Strategic Management of Human Capital. Facing
substantial prospective retirements, agencies must hire and retain people with needed
skills and hold them accountable for serving customers and stakeholders. OMB considered
20 agencies “green” for progress, meaning they had plans in place to assess their workforce
and to use every tool at their disposal to recruit and retain the workforce they need to fulfill
their missions.

                                               3
                                          ig
                              April 2005 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 72 percent of the FY 2005 budget. The
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and
administrative support personnel. All employees are located at 500 E Street SW,
Washington, DC 20436. At the end of FY 2004, the Commission employed a total of 359
permanent employees.
The Commission has made progress in implementing a Human Capital Vision and
Strategic Human Capital Plan. Accordingly, the Commission reviewed 100 percent of
positions within the Office of Operations, Office of General Counsel and Office of
Administration. Not only were needed skills identified but the Commission determined
that it can reduce by 20 positions within the next 5 years.
The Commission’s skills analyses led it to implement a leadership development program
focusing on the competencies needed for mission success. The Commission also continued
its focus on work/life initiatives by implementing a policy to reimburse attorneys and
certified public accountants for the professional certifications required for their positions
as well as a policy to reimburse employees for a portion of their fitness memberships.
During this period, OIG audits and inspections did not address human capital
management.




                                             4
                                                                                                  ig
                                                                          April 2005 SemiAnnual Report




                                              COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                        U.S. International Trade Commission




                                                                                     Chairman
                                                                                  COMMISSION




 Office of the          Office of the                                     Office of                  Chief               Office of              Office of the           Office of
                                                Office of the                                                                                                            Equal
Administrative           General                Director of               External                Information         the Director of            Inspector
 Law Judges              Counsel                                          Relations                  Officer          Administration              General              Employment
                                                Operations                                                                                                             Opportunity

                                                                          Trade Remedy
                                                                         Assistance Office




 Office of           Office of               Office of                             Office of                 Office of               Office of                               Office of
Economics                                                                                                  Information                Human                    Office of     Facilities
                     Industries           Investigations                              the                                                                      Finance
                                                                                   Secretary               Technology                Resources                              Management
                                                                                                             Services




                            Office of                  Office of
                          Tariff Affairs             Unfair Import
                           and Trade                 Investigations
                          Agreements
             Budget Committee                                                                                   Information Resources Management Steering Committee (IRMSC)
                Authority: Adm. Order 00-06, dated 7/26/00                                                         Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                                Labor-Management Occupational Safety and Health Committee
             Directives Review Committee                                                                          Authority: Adm. Order 05-04, dated 2/10/05
                 Authority: CO71-U-004, dated 7/11/97

             Document Imaging Oversight Committee (DIOC)                                                        Labor-Management Partnership Council
                Authority: Adm. Order 96-06, dated 3/15/96                                                        Authority: Adm. Order 03-05, dated 2/11/03

             Executive Resources Board (ERB)                                                                    Strategic Planning Committee (SPC)
                Authority: Adm. Order 04-06, dated 6/23/04                                                         Authority: Adm. Order 02-08, dated 5/3/02

             Incentive Awards Committee (IAC)                                                                   Senior Executive Service Performance Review Board (PRB)
                 Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                   Authority: Adm. Order 02-09, dated 7/15/02


                                                                                                     5
                                         ig
                             April 2005 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi–judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, the U.S. Trade Representative (USTR)
and the Congress with independent, quality analysis, information, and support on matters
of tariffs and international trade and competitiveness; and maintain the Harmonized Tariff
Schedule of the U.S. In so doing, the Commission serves the public by implementing U.S.
law and contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:
       j Import Injury Investigations—The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and counter-
         vailing duty (AD/CVD) investigations concerning the effects of unfairly traded
         imports on a U.S. industry.
       j Intellectual Property–Based Investigations—The Commission adjudi-
         cates complaints brought by domestic industries under section 337 of the Tariff
         Act of 1930 that allege infringement of U.S. intellectual property rights and
         other unfair methods of competition by imported goods.
       j Research—The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Trade Act of 1974 and section
         2104 of the Trade Act of 2002; analysis of trade and competitiveness issues
         under section 332 of the Tariff Act of 1930; and independent assessments on a
         wide range of emerging trade issues.
       j Trade Information Services—The Commission’s trade information services
         include such activities as legislative reports; maintenance of the Harmonized
         Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under
         the General Agreement on Tariffs and Trade/World Trade Organization;
         preparation of U.S. submissions to the Integrated Database of the World Trade
         Organization; and certain other information gathering, processing, and
         dissemination activities.
       j Trade Policy Support—The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                            6
                                         ig
                             April 2005 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2–year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
The current Commissioners are Stephen Koplan, Daniel R. Pearson, Charlotte R. Lane,
Jennifer A. Hillman, Marcia E. Miller, and Deanna Tanner Okun. The current Chairman
is Stephen Koplan and the current Vice Chairman is Deanna Tanner Okun.
In FY 2005, the Commission had an estimated $61.7 million in available funds and a
staffing plan for 388 permanent positions and 25.5 term/temporary positions. All
employees are located in one building at 500 E Street, SW, Washington, DC.




                                             7
                                             ig
                               April 2005 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full–time positions and one
part–time position in FY 2004.
For FY 2004, the OIG was allocated 3.5 staff years. This provided for three full–time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part–time position (Counsel to the Inspector General). The Commission
also allocated $230,000 for OIG contracted audit and review services for FY 2005.


                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                               Part-time

    Assistant Inspector
                              Paralegal Specialist                       Counsel to the
     General for Audit
                                                                       Inspector General




                                                8
                                        ig
                            April 2005 SemiAnnual Report




                                     AUDITS
                                  Audit Report List
We issued three audit reports during this period:
       j OIG-AR-01-05, Evaluation of the U.S. International Trade Commission’s Fiscal
         Year 2004 Information Security Program and Practices (see page 9)
       j OIG-AR-02-05, Independent Audit of the U.S. International Trade
         Commission’s FY 2004 Financial Performance and Statement on the
         Commission’s Management Challenges (see page 10)
       j OIG-AR-03-05, Management Letter: Audit of the U.S. International Trade
         Commission’s Financial Statements for the Year Ended September 30, 2004 (see
         page 11)
Generally, the Commission made progress implementing pending actions recommended in
the following reports since issuance of our last Semiannual Report:
       j OIG-AR-01-04, Evaluation of the U.S. International Trade Commission’s
         Discretionary Document and Mail Distribution Program (see page 12)
       j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 12)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 13)


                      Summary of Significant Audits
Evaluation of the U.S. International Trade Commission’s Fiscal Year 2004
Information Security Program and Practices, OIG-AR-01-05 (October 6, 2004)
http://www.usitc.gov/oig/ OIG-AR-01-05.pdf
The OIG conducted our annual independent audit of the Commission’s information security
program and practices to determine if the Commission: (1) implemented appropriate
actions to address recommendations made in OIG-AR-03-03 (September 22, 2003); and (2)
met Federal Information Security Management Act criteria.




                                           9
                                         ig
                             April 2005 SemiAnnual Report




AUDITS—Continued
The Commission made significant progress in strengthening its information security
program plan during the 2004 fiscal year. The most commendable accomplishments
include:
       j Designing and implementing System Security Plans for Commission-owned
         major applications, notably: EDIS, ITC Net, Publishing Network, Custom Net
         Import File, Core WebServices and Data Web Cluster;
       j Working towards completing a Commission-wide risk assessment as well as
         application-specific risk assessments; and
       j Installing and implementing a new local area network infrastructure (ITC-Net)
         that was designed to address most of the FY 2003 access control related
         recommendations.
The Commission must however take further action in order to achieve consistency with
U.S. Office of Management and Budget (OMB) Circular A-130, Appendix III Security of
Federal Automated Information Resources (February, 1996). We made 14 recommend-
ations to improve the Commission’s IT security.
In addition to the 13 recommendations from OIG-AR-03-03 (September 22, 2003), this
audit identified 1 new weakness. The Commission concurred with our findings and
recommendations and implemented 7 of the 14 recommendations at the time of this
publication.
Due to the sensitive nature of the information contained in our report, we have limited its
distribution.
Independent Audit of the U.S. International Trade Commission’s FY 2004
Financial Performance and Statement on the Commission’s Management
Challenges, OIG-AR-02-05 (November 9, 2004)
http://www.usitc.gov/oig/ OIG-AR-02-05.pdf
We conducted our first annual audit of the Commission’s FY 2004 financial statements and
issued an unqualified opinion. We performed the audit in accordance with U.S. generally
accepted government auditing standards, which included audit follow-up on
recommendations we reported from our prior year’s audit titled Audit of the U.S.
International Trade Commission’s Financial Management System Control, OIG-AR-02-03
(July 24, 2003) http://www.usitc.gov/oig/OIG-AR-02-03.pdf, and applicable provisions of
the Office of Management and Budget Bulletin 01-02, Audit Requirements for Federal
Financial Statements.

                                           10
                                         ig
                             April 2005 SemiAnnual Report




The audit found that the financial statements fairly presented the Commission’s financial
position as of September 30, 2004, in all material respects, in conformity with accounting
principles generally accepted in the United States of America. Additionally, the audit found
no material weakness in the Commission’s internal controls and compliance with laws and
regulations.
As part of the audit, we also reported on the top management challenges facing the
Commission as identified by the OIG—as well as recent OIG activities relating to each
challenge. These five challenges—Competitive Sourcing; Improved Financial Perform-
ance; Budget and Performance Integration; Expanded Electronic Government; and
Strategic Management of Human Capital—are discussed on pages 1 to 4.
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for the Year Ended September 30, 2004, OIG-AR-03-05
(March 24, 2005) http://www.usitc.gov/oig/OIG-AR-03-05.pdf
As part of our independent audit of the Commission’s 2004 financial statements, we also
issued a management letter that identified other matters, not required to be included in
our report on the financial statements.
The Commission should strengthen certain internal control areas related to accountable
property, depreciation expense, disbursement cutoff, and the timely deposit of cash
receipts. In addition, the Commission must abide by all the rules specified by the Federal
Managers’ Financial Integrity Act of 1982. We made five recommendations that will assist
the Commission in correcting these deficiencies.
The Commission concurred with our findings, and the planned actions met the intent of the
recommendations.




                                            11
                                          ig
                              April 2005 SemiAnnual Report




                              AUDIT FOLLOW–UP
Pending recommended actions remain open on three audits reported in the previous
semiannual report:
Evaluation of the U.S. International Trade Commission’s Discretionary
Document and Mail Distribution Program, OIG-AR-01-04 (May 26, 2004)
http://www.usitc.gov/oig/OIG-IR-01-04.pdf
The Commission agreed with all six recommendations and fully implemented four. By the
end of FY 2005, the Commission intends to complete action to satisfy the remaining two
recommendations—
       j Issue official guidance on the format (i.e., paper or CD-ROM) to be distributed
         for final reports and publications by type of customer (e.g., Congress, libraries,
         law firms).
       j Enhance the report distribution procedures by consolidating its mailing lists
         into one list and recording and tracking in its mailing lists the customers’ desired
         type of report and desired medium (i.e., paper, CD-ROM, and Web site).
Also, the annual verification letter should be revised to specifically request:
       j The customer’s email address for communicating and sending notices to the
         customer.
       j The customer’s report medium preference along with a short description of the
         delivery time for each type, including the immediate availability of the report
         and other information from the Commission’s Web site.
       j An explanation of how the customer would be alerted of the publication’s
         availability.
Evaluation of the Commission’s Travel Program, OIG-AR-03-02
(September 30, 2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
The Commission agreed with all six recommendations, implemented five, but has yet to:
       j Issue an Administrative Order directing supervisors to identify and
         communicate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.




                                            12
                                        ig
                            April 2005 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
With the advent of a major change in the travel service provider, the Commission has
postponed a final solution to this issue until the new travel management system is fully
operational. Charge limits have been placed on all travel cards Commission-wide and are
only removed for international travel. Random audits are conducted by the Office of
Finance on travel reports throughout the year. The costs and benefits of further limiting
or restricting card usage will be evaluated with the new service provider.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
The Commission agreed with all 22 recommendations, implemented 21, but has yet to:
       j Identify records scanned by EDIS so they can be disposed.
The Commission has been working with the National Archives and Records Administration
regarding a conflict between the disposition schedule for records created using EDIS and
earlier records.




                                          13
                                        ig
                            April 2005 SemiAnnual Report




                                INSPECTIONS

                            Inspection Report List
During this period we issued no inspection reports.




                                          14
                                            ig
                              April 2005 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                           Summary of Investigative Activity

During this reporting period, one new case was initiated, and one case was closed A
summary of investigative activity is presented below.




       Case Workload                 Referrals Processed        Investigative Results
 Open (09/30/04)       1       Received                 0      Referrals for
                                                               Prosecution              0

 Assistance in joint           Referred to OIG
 Investigation                 Audit & Inspection
 with other                    Divisions                0
 Federal Agencies      1

                               Referred to Commission   1      Referrals Declined for
 Initiated             1                                       Prosecution              1


 Closed                2       Referred to other               Administrative
                               Federal Agencies         0      Action                   0

 Open (03/31/05)       1       Evaluated but no
                               Investigation
                               Initiated                0




                                               15
                                        ig
                            April 2005 SemiAnnual Report




INVESTIGATIONS—Continued


                                Joint Investigation
The OIG assisted the Federal Bureau of Investigation and U.S. Postal Inspection Service
in a joint investigation of an ITC contractor employee, who was allegedly involved in an
identity theft fraud ring. The contractor employee was banned from the building.
Subsequently, the case was referred to an Assistant United States Attorney, who declined
to prosecute.


                                 Personnel Action
The OIG examined the agency’s processing of a personnel action by interviewing ITC
employees involved in the personnel process and assessing compliance with applicable ITC
directives. The OIG found that the Commission’s steps in implementing this personnel
action were inconsistent with aspects of certain ITC directives. Furthermore, the OIG
offered suggestions to address similar situations in the future.




                                          16
                                         ig
                             April 2005 SemiAnnual Report




                            OTHER ACTIVITIES
Regulatory Review
The Inspector General Act, 5 U.S.C., Appendix, Section 4(a) (2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. During this reporting period, the OIG commented
on the draft Student Loan Repayment Program directive and the draft Property
Management directive. The ITC issued the final Student Loan Repayment Program
directive during the current reporting period. The final directive included several OIG
suggestions, including those about the selection process, requiring fully successful
performance levels and written agreements.

Government Accountability Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation. During this
period, the Government Accountability Office initiated a study of trade remedy laws and
completed a report recommending improvements in textile safeguard procedures
pertaining to U.S.-China trade (U.S.-China Trade: Textile Safeguard Procedures Should Be
Improved, GAO-05-296, April 5, 2005). Although GAO officials interviewed Commission
officials, the report’s findings and recommendations were directed to organizations other
than the Commission.

Liaison Activities
The Inspector General is one of 28 DFE Inspectors General, who are members of the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of Personnel
Management, the Office of Government Ethics, the Office of Special Counsel, and the
Federal Bureau of Investigations.
The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially appointed
Inspectors General.

                                            17
                                         ig
                             April 2005 SemiAnnual Report




OTHER ACTIVITIES—Continued
The ECIE and PCIE have identical functions and responsibilities to promote integrity and
efficiency and to detect and prevent fraud, waste and abuse in federal programs.
During this period, the Inspector General served on the Board of the Association of
Inspectors General, where federal, state and local OIGs share ideas on how to enhance
their effectiveness and professionalism. The Inspector General has served for over 3 years
as a member of the PCIE ECIE Human Resources Committee.
In addition to Human Resource Committee activities, the Inspector General has for more
than 3 years volunteered as an occasional guest instructor for the Inspectors General
Auditor Training Institute. As a Certified Myers Briggs Type Instrument® (MBTI)
Professional, he facilitated a team building workshop using the MBTI for multiple Offices
of Inspector General in Rosslyn, Virginia.
The Assistant Inspector General for Audit (AIGA) is a member of the Financial Statement
Audit Network (FSAN) that anticipates potential changes and shares experiences related
to auditing their respective agencies’ financial statements. She is also a member of the
Federal Audit Executive Council (FAEC) established to assist the community in addressing
issues that arise in OIG organizations by developing and maintaining databases of
information useful to government auditors.
The Counsel to the Inspector General was elected one of the Vice Presidents of the Council
of Counsels to the Inspectors General (CCIG). Her duties include recording the minutes of
the monthly meetings and assisting with facility arrangements—such as arranging for the
March 2005 CCIG meeting that was held at ITC. As a member of the Inter-agency Ethics
Council, she continued to provide a monthly report to the Inter-agency Ethics Council on
Federal Court cases involving ethics issues.
In addition to her professional contributions to the federal OIG community, the OIG
Counsel is a volunteer tutor for a first grade elementary school student. The Commission
adopted Amidon Elementary School, a neighboring District of Columbia public school, for
which Commission employees voluntarily tutor students in a variety of subjects.




                                           18
                                          ig
                            April 2005 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           17

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     12-13

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     15

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                          9

Section 5(a)(7)     Summary of each significant report                                  9-11

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            20

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     21

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None


                                             19
                                                         ig
                                        April 2005 SemiAnnual Report




                      Table 1
       AUDIT REPORTS WITH QUESTIONED COSTS6
                                                                                                      Dollar Value

                                                         Number of                    Questioned              Unsupported
                                                           Reports                         Costs                    Costs

A.        For which no management decision has
          been made by the commencement of the period               0                             0                         0

B.        Which were issued during the reporting period             0                             0                         0

          Subtotals (A+B)                                           0                             0                         0

C.        For which a management decision was made
          during the reporting period                               0                             0                         0

          (i)      Dollar value of
                   disallowed costs                                 0                             0                         0

          (ii)     Dollar value of costs
                   not disallowed                                   0                             0                         0

D.        For which no management decision has been
          made by the end of the reporting period                   0                             0                         0

E.        Reports for which no management decision was
          made within six months of issuance                        0                             0                         0




    1 The ITC OIG generally does not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.


                                                            20
                                                  ig
                                    April 2005 SemiAnnual Report




                      Table 2
      AUDIT REPORTS WITH RECOMMENDATIONS
         THAT FUNDS BE PUT TO BETTER USE
                                                                           Number of   Dollar
                                                                             Reports    Value

A.      For which no management decision has been made by
        the commencement of the period                                             0       0

B.      Which were issued during the reporting period                              0       0

Subtotals (A+B)                                                                    0       0

C.      For which a management decision was made during the reporting period       0       0

        (i)       Dollar value of recommendations that were
                  agreed to by management                                          0       0

        (ii)      Dollar value of recommendations that were
                  not agreed to by management                                      0       0

D.      For which no management decision has been made by the end of the
        reporting period                                                           0       0

E.      Reports for which no management decision was made within six
        months of issuance                                                         0       0




                                                     21
                                         ig
                             April 2005 SemiAnnual Report




                                   GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a
                             finding that, at the time of the audit, such cost is not
                             supported by adequate documentation; or (3) a finding
                             that the expenditure of funds for the intended purpose
                             is unnecessary or unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from programs or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           22
                            ig
                 April 2005 SemiAnnual Report




Special thanks to the Office of Information Technology Services
               for the production of this report:




                              23
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
